<html>
<title> - HEARING ON H.R. 2760, DISABLED SPORTSMEN'S ACCESS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
         HEARING ON H.R. 2760, DISABLED SPORTSMEN'S ACCESS ACT

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                      MAY 14, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-84

                               __________

           Printed for the use of the Committee on Resources

                              -------------

                     U.S. GOVERNMENT PRINTING OFFICE
48-953 cc                    WASHINGTON : 1998




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                  Christopher Mann, Legislative Staff
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 14, 1998........................................     1

Statement of Members:
    Chambliss, Hon. Saxby, a Representative in Congress from the 
      State of Georgia...........................................     5
        Prepared statement of....................................     6
    Cunningham, Hon. Randy ``Duke'', a Representative in Congress 
      from the State of California...............................     3
        Prepared statement of....................................     3
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............     2
    Peterson, Hon. Collin, a Representative in Congress from the 
      State of Minnesota.........................................     4
        Prepared statement of....................................     5
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, prepared statement of.......................     1
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Fasciana, Jack, Safari Club International....................    14
        Prepared statement of....................................    23
    Deal, Lieutenant Colonel A. Lewis, Executive Officer, Weapons 
      Training Battalion, Quantico Marine Corps Base.............     8
        Prepared statement of....................................    19
    Gerlach, H. Larry, Lieutenant Colonel, USMC, Retired.........    10
        Prepared statement of....................................    20
    Goodman, Sherri W., Deputy Under Secretary of Defense for 
      Environmental Security, Department of Defense..............     7
        Prepared statement of....................................    17
    Thomas, Harley, Lieutenant Colonel, USMC, Retired............    11
        Prepared statement of....................................    21
    Thomas, Kirk, President, Wheelin' Sportsmen of America, Inc..    13
        Prepared statement of....................................    25

Additional material supplied:
    National Rifle Association of America, prepared statement of.    23


         HEARING ON H.R. 2760, DISABLED SPORTSMEN'S ACCESS ACT

                              ----------                              


                         THURSDAY, MAY 14, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1324 Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.
    Mr. Saxton. Let me make an announcement, if I may. We've 
just been called for a vote and I have to leave here at 11 a.m.
    Mr. Cunningham, do you want to try to get your statement in 
before we go to vote?
    Mr. Cunningham. Yes.
    Mr. Saxton. OK. And let me ask unanimous consent that Mr. 
Pallone's statement and my statement be entered into the 
record.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The purpose of today's hearing is to discuss 
H.R. 2760, the Disabled Sportsmen's Access Act.
    By way of background, the Department of Defense (DOD) 
controls nearly 30 million acres of valuable fish and wildlife 
habitat at approximately 900 military installations nationwide. 
Enacted by Congress in 1960, the Sikes Act provides a mechanism 
for cooperative wildlife management on these military 
installations.
    Most military installations offer numerous outdoor 
recreational programs that provide excellent opportunities for 
both military and civilian sportsmen. However, there is no 
system-wide policy for making these lands available and 
accessible to disabled veterans or civilians with disabilities.
    Today, the Quantico Marine Base, which is about 30 miles 
west of Washington, DC, has a ``fully integrated program for 
disabled veterans from the first day of bow season to the last 
day of gun season.'' Quantico is a model for other military 
installations throughout the United States.
    H.R. 2760, an amendment to the Sikes Act, would encourage 
the Department of Defense to provide improved access for 
disabled individuals, where appropriate and within the military 
mission. Furthermore, H.R. 2760 allows the Department to accept 
donations of private money, material and volunteers for the 
construction of facilities accessible to sportsmen with 
disabilities.
    The goal of this proposal is to increase access to military 
installations for hunting, fishing, boating and other outdoor 
activities for the disabled. H.R. 2760 has been endorsed by a 
number of groups including: Disabled American Veterans, 
International Association of Fish and Wildlife Agencies, 
Paralyzed Veterans of America, Safari Club International, 
Wheeling Sportsmen of America, and the Wildlife Management 
Institute.
    I am looking forward to hearing from our distinguished 
witnesses today.

    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Thank you, Mr. Chairman, for holding this hearing today on 
the Disabled Sportsmen's Access Act, an amendment to the Sikes 
Act.
    The Sikes Act authorizes the Secretary of Defense and the 
Secretary of the Interior, in coordination with the States, to 
carry out cooperative fish and wildlife conservation and 
management efforts on DOD property. This is a very important 
statute, in that the Department of Defense happens to control 
nearly 300 million acres of fish and wildlife habitat.
    The Disabled Sportsmen's Access Act amends the Sikes Act to 
allow DOD to facilitate improved access to these properties for 
disabled individuals. In this way, the legislation that we are 
considering today could improve access to DOD property for all 
disabled individuals alike--including disabled veterans, 
military dependents with disabilities, and others with 
disabilities--for the purposes of hunting, fishing, and other 
outdoor activities on military lands. The facilitation of these 
activities would be carried out using donations of funding, 
materials and labor--no Federal funding is authorized in the 
bill.
    Under the bill, the facilitation of these recreational 
opportunities for persons with disabilities must be conducted 
in a manner ``consistent with the primary military mission of 
the installations'' and ``without substantial modification to 
the natural environment.'' The interpretation of this last 
phrase is something that I am interested in hearing about from 
our witnesses here today.
    Other than that, I think this bill is fairly 
straightforward and should be without controversy.
    I welcome today's witnesses, and I look forward to hearing 
their testimony.

    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    As a cosponsor of H.R. 2760, I am pleased that we are 
having this Subcommittee hearing today on the Disabled 
Sportsmen's Access Act.
    This legislation, which would amend the Sikes Act, is an 
innovative way to create opportunities for disabled Americans 
to hunt and fish. It would encourage the Department of Defense 
(DOD) to work with local volunteers to build hunting blinds and 
fishing piers that can be used by disabled persons on some of 
the 30 million acres under DOD's jurisdiction.
    While not limited to retired military personnel, there are 
some 78,000 veterans in this Nation who are confined to 
wheelchairs with spinal cord injuries. Five years ago, Lt. Col. 
Lewis Deal, with the support of his commanding officer, began a 
program at the Quantico Marine Base to build four handicap-
accessible deer stands. This program has been a tremendous 
success and it is a model for the rest of the 900 U.S. military 
installations.
    The goal of H.R. 2760 is to build upon the success of the 
Quantico experience and to expand, where appropriate, 
additional opportunities for hunting, fishing, and other 
wildlife-dependent activities. Under the terms of this measure, 
the Department would be able to accept donations of private 
money, materials, and volunteer time to facilitate the 
construction of facilities accessible to sportsmen with 
disabilities.
    This is an excellent proposal and I compliment our 
colleague, Duke Cunningham, for introducing this fine bill, Lt. 
Col. Lewis Deal for his compassion for disabled sportsmen, and 
the Congressional Sportsmen's Caucus for championing this 
important cause. It is not surprising that this bill is 
supported by a wide range of groups including the Disabled 
American Veterans, International Association of Fish and 
Wildlife Agencies, Paralyzed Veterans of America, Safari Club 
International, Wheeling Sportsmen of America, and the Wildlife 
Management Institute.
    Finally, I look forward to hearing from our distinguished 
witnesses. In particular, I am pleased that the Subcommittee 
will hear from Lt. Col. Larry Gerlach. Col. Gerlach was the 
Commander of the Marine Barracks in Lebanon when it was 
demolished by an insane terrorist on October 23, 1983. This 
Nation owes a great debt of gratitude to Col. Gerlach and all 
of the Marines who were in that barracks on that terrible day. 
His support for this legislation alone is a reason to move it 
forward.
    Thank you, Mr. Chairman.

    Mr. Saxton. Mr. Cunningham, I believe you are the sponsor 
of this bill and perhaps you would like to begin.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Saxton. Welcome aboard.

 STATEMENT OF HON. RANDY ``DUKE'' CUNNINGHAM, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cunningham. Thank you, Jim. We'd like to, all of us 
sponsoring this bill--and you can see behind us the number of 
people we have--and I'd just like to submit this for the 
record, instead of going through this whole thing. Disabled 
sportsmen have had other disadvantages besides personal ones in 
their life, and that's to participate in activities that most 
of you and I are able to do.
    This program is modeled on a program at Quantico started by 
Lieutenant Colonel Lewis Deal, who will testify in just a 
minute. We've got fishing piers, we've got hunting areas, we've 
got things that disabled sportsmen can utilize and inprove the 
quality of their own lives. I can't imagine being stuck 
disabled for the rest of my life. And if I had any opportunity 
to participate in some of the normal functions of society, I 
think that that would be good.
    This is a system which is very successful. It's a good idea 
and we've got private individuals to invest. I was just talking 
to the Colonel and we're trying to get the NFL to donate some 
of the lifts for us in different areas. And with that, I'd like 
your consideration and your help. Any changes that any of you 
on either side of the aisle have, we will be more than willing 
to look at those. But we think it's a pretty good program as is 
and we ask for your support.
    Instead of going through this whole thing, for the time, I 
will just submit for the record, Mr. Chairman.
    [The prepared statement of Mr. Cunningham follows:]

   Statement of Hon. Randy ``Duke'' Cunningham, a Representative in 
                 Congress from the State of California

    Chairman Saxton, members of the Committee, thank you for 
holding this hearing on the Disabled Sportsmen's Access Act, 
H.R. 2760. I appreciate the opportunity to bring this 
legislation before you today.
    I introduced this legislation to expand opportunities for 
sportsmen with disabilities to hunt and fish on Department of 
Defense facilities. In addition, this legislation will allow 
the Department to work with private organizations to construct 
facilities and operate programs specifically for sportsmen with 
disabilities.

Background

    This legislation is based on a program run at nearby Marine 
Corps Base Quantico, Virginia. This program, created by Lt. 
Col. Lewis Deal, who will testify later in this hearing, is one 
of the nation's most successful disabled hunting programs. With 
the help of volunteers and donated materials, Col. Deal has 
built eight permanent disabled accessible hunting blinds.
    In addition, Quantico is constructing a fishing pier which 
will be accessible for people with disabilities. This pier is 
designed by the Paralyzed Veterans of America and is a model 
for everyone in America to use.

Disabled Sportsmen's Access Act

    The legislation before you today builds upon this 
successful program by encouraging the Department of Defense to 
provide improved access for disabled individuals, when 
appropriate and within the military mission. I want to stress 
that this bill protects the primary purpose of our nation's 
military, the defense of our nation. Nothing in this 
legislation is intended to hinder the ability of the nation's 
fighting forces.
    However, this legislation is intended to expand the 
opportunities which our military installations offer for 
outdoor recreational activities. These programs and 
opportunities are available in many cases to both civilian and 
military personnel. However, there has never been a 
concentrated effort to provide access for people with 
disabilities. This bill is intended to change that by providing 
improved access for sportsmen with disabilities.

Donations

    The second component of this legislation will allow the 
Department of Defense to accept donations of money, material 
and volunteers for the construction of the facilities necessary 
to accommodate sportsmen with disabilities. This will allow the 
Department to help sportsmen with disabilities hunt and fish at 
no additional cost to the Federal Government.

Support

    This legislation is strongly supported by Paralyzed 
Veterans of America, Disabled American Veterans, The Retired 
Officers Association, Wheeling Sportsmen of America, Pioneers 
for the American Dream, Safari Club International, Wildlife 
Legislative Fund of America, and the International Association 
of Fish and Wildlife Agencies.
    This bill is also supported by Haas Outdoors Inc., the 
manufacturer of Mossy Oak camouflage. President Toxey Haas 
says, ``The access to military lands for the purposes of 
hunting and fishing that H.R. 2760 provides will go a long way 
toward the rehabilitation of our veterans who have given so 
much for us all.''
    The Archery Manufacturers and Merchants Organization, 
President Dick Lattimer, says ``a great number of paralyzed 
vets enjoy hunting with bow and arrow, and for that reason I 
would like to help you in whatever way I can.''
    Buckmasters Magazine supports this bill by saying, ``this 
important legislation will create new opportunities for the 
disabled, exercising their God-given rights to hunt and fish 
and enjoy the outdoors.''
    The common theme in all of these letters of support is the 
importance of outdoor recreation in improving people's quality 
of life. This legislation can provide that benefit to people 
who are too often denied access to our nation's precious 
wildlife and natural beauty.

Action

    Mr. Chairman, I know that you are aware that this 
legislation is included in the fiscal year 1999 Defense 
Authorization legislation (H.R. 3616), which was reported by 
the House National Security Committee on Wednesday, May 6, 
1998. I hope that this Committee of jurisdiction will take 
prompt action to favorably pass this legislation.

Closing

    Mr. Chairman, America has always provided for its veterans. 
This legislation lets us give a little back to our veterans who 
have given so much.
    Thank you.

    Mr. Saxton. The chances for great success for your bill 
have been enhanced by the brevity of your statement.
    Mr. Peterson.

STATEMENT OF HON. COLLIN PETERSON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I, too, would just 
ask that, without objection, my statement be made a part of the 
record. In Minnesota at Camp Ripley, a National Guard camp that 
trains people from all over the United States, we have a hunt 
that's been going on for some time where we bring disabled 
people in for a deer hunt. The veterans' groups have become 
involved, and they hunt with shotguns and some handguns. It's 
very successful and something that's really appreciated by the 
disabled veterans and others in our area and I think it's 
something that we ought to do all over the country.
    So here we have an example of something that works and this 
bill is a good way to expand it to other places in the country 
and we'd appreciate your support.
    [The prepared statement of Mr. Peterson follows:]

Statement of Hon. Collin C. Peterson, a Representative in Congress from 
                         the State of Minnesota

    I would first like to thank Chairman Saxton and the members 
of this Committee for giving me the opportunity to testify 
before you today. I strongly support this legislation which 
encourages the Department of Defense to provide improved access 
for disabled veterans on military installations for hunting, 
fishing, boating and other outdoor activities. The goal of this 
legislation is to enable the Department of Defense to accept 
private donations, material and volunteers for the construction 
of facilities accessible to sportsmen with disabilities, and to 
provide access to military installations through various 
recreational programs.
    A good example of the type of program which I believe can 
be applied nationwide happens in Minnesota--at Camp Ripley. The 
entire Camp Ripley is a state game refuge. However, this past 
October, Camp Ripley hosted close to 40 disabled veterans who 
used both shotguns and in some cases, handguns, to hunt white 
tail deer for three days. This is a great program which allows 
veterans to enjoy nature by getting back into the woods again. 
The deer hunt has become very popular and has been drawing more 
and more participants every year. In fact, the number of 
disabled veterans who want to participate in the hunt has been 
growing rapidly since the program began about five years ago. 
The entire hunt is planned so as not to interrupt any training 
exercises which occur at Camp Ripley. The program is not 
difficult to implement and is also administered in a safety 
conscious manner--especially with the help of volunteers who 
assist each veteran one-on-one during the hunt.
    I believe that the annual white tail deer hunt at Camp 
Ripley, Minnesota is a highly successful program which deserves 
to be used as an example of what can be done across the country 
at different military installations. I support The Disabled 
Sportsmen's Access Act as a means of facilitating these types 
of programs nationwide.

    Mr. Saxton. Thank you very much. Mr. Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Chambliss. Thank you, Mr. Chairman. I, too, have a 
prepared statement for the record that I think has already been 
submitted, and I want to just take the opportunity to thank 
Duke Cunningham for introducing this legislation. I know Collin 
feels the same way I do. It's one of the proud moments that 
we've had the opportunity to serve in Congress on with respect 
to cosponsoring a piece of legislation like this.
    I've been very fortunate in my lifetime in the area where I 
live in south Georgia to be able to hunt and fish with my son 
on a regular basis, and for these folks to have more of an 
opportunity to do this in other areas of the country, I think 
is one of the best possible things that we can do with respect 
to the disabled folks in this country. And it's one of the best 
utilitizations of public lands that we can make.
    I think the idea is just a terrific idea and I think 
deserves the strong support of this Committee. Of course, you 
and I serve on the National Security Committee together. This 
legislation is a part of our Defense Authorization bill that we 
passed in committee last week and will be going to the floor 
next week.
    You were a strong proponent of it in the National Security 
Committee, and I know you will see to its swift passage in this 
Subcommittee and Full Committee, and we thank you for your 
reception of us this morning.
    [The prepared statement of Mr. Chambliss follows:]

 Statement of Hon. Saxby Chambliss, a Representative in Congress from 
                          the State of Georgia

    Thank you Chairman Saxton and Members of the Committee for 
holding this hearing today. I am pleased to have the 
opportunity to join my colleague Representative Duke Cunningham 
and thank him for introducing the bill, H.R. 2760 The Disabled 
Sportsmen's Access Act. As an original co-sponsor of the 
legislation and the vice chairman of the Congressional 
Sportsmen's Caucus, I strongly support this bill. Mr. Chairman, 
as a member of the House National Security Committee along with 
you, I am pleased that we included the Disabled Sportsmen's 
Access Act in last week's fiscal year 1999 Department of 
Defense Authorization Bill.
    All my life I have enjoyed hunting and fishing. 
Fortunately, my son and I have the opportunity to enjoy the 
outdoors together--whether it's quail hunting in south Georgia, 
pheasant hunting together in the midwest or fishing in one of 
our favorite ponds scattered across our state. Indeed, these 
times are priceless for a father and son.
    This legislation ensures that every father and son, even if 
they are disabled will have the same opportunity to enjoy the 
great outdoors in a way that is so satisfying.
    As Mr. Cunningham has said, this legislation expands 
opportunities for sportsmen with disabilities to hunt and fish 
on Department of Defense facilities. This bill will also allow 
the Department to work with private organizations to construct 
facilities and operate programs specifically for sportsmen with 
disabilities.
    Based on the disabled hunting and fishing program run at 
nearby Marine Corps Base Quantico, Virginia, this legislation 
is a common-sense way to provide opportunities for these 
activities to individuals across America.
    While I do not want to restate any of the details of the 
legislation that my colleague Mr. Cunningham has just 
presented, I do want to share with you the fact that this 
legislation has broad support from veterans groups, 
organizations representing the disabled and from a litany of 
outdoors and hunting and fishing groups.
    Again, I thank you Mr. Chairman for holding this hearing 
today. It is a non-partisan issue that ensures we provide 
opportunities to those who too often do not have the chance to 
participate in hunting and fishing activities. Mr. Chairman, it 
is my hope that this hearing today by your Subcommittee is an 
indicator that the House Resources Committee will take prompt 
action on favorably passing this bill. I commend my colleague 
Mr. Cunningham and look forward to hearing the testimony of 
other panelists today.

    Mr. Saxton. Thank you very much. And let me just say that 
this bill is moving on two tracks, and the reason that it is 
moving on two tracks is because you three have been such great 
proponents for it. And we appreciate that, and I am sure that 
either through the free-standing bill that we are dealing with 
today or through the Defense Authorization bill, that within a 
few months, this will become a law. And it's because of your 
great work that we are in the position that we are, so thank 
you very much for your great effort.
    Mr. Cunningham. And the service chiefs--I have talked to 
all of them--support this, too.
    Mr. Saxton. Very good. Thank you very much. We will break 
now for our vote. When we get back, we will proceed with panel 
No. 2, Sherri Goodman, Deputy Under Secretary of Defense, and 
Lietenant Colonel Lewis Deal, Executive Officer, Weapons 
Training Battalion, from Quantico. We appreciate you being with 
us as well, so while we are gone, you can get yourselves set up 
there.
    Prime Minister Netanyahu is here and some of us have been 
invited to meet with him at 11 o'clock, so hopefully, we will 
be able to conclude this so that we don't have to take a break 
for that and then come back. So I will rush over and be back 
within 5 or 10 minutes. Thank you very much.
    [Recess.]
    Mr. Saxton. I apologize for that. And I wouldn't be 
surprised if there will be some more votes here in the next 
half hour or so, but we will persevere.
    Sherri Goodman and Col. Deal, welcome aboard. We are 
anxious to hear your testimonies, so you may proceed.

   STATEMENT OF SHERRI W. GOODMAN, DEPUTY UNDER SECRETARY OF 
   DEFENSE FOR ENVIRONMENTAL SECURITY, DEPARTMENT OF DEFENSE

    Ms. Goodman. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today to testify on behalf of the 
Department of Defense. I am very pleased to report to you that 
we have worked with Congressman Cunningham's staff to make some 
minor, but necessary, revisions to the bill as introduced, and 
I am now pleased to convey to you the Department's full support 
for this Disabled Sportsmen's Access Act.
    I am also very pleased to have with me on this panel, 
Lieutenant Colonel Deal, whose enthusiastic support for the 
cause of the disabled sportsmen has made this bill possible. 
Col. Deal has personally been responsible for the success of 
the Disabled Sportsmen's Program at Marine Corps Base, 
Quantico.
    As you know, Mr. Chairman, we manage about 25 million acres 
of land across the United States, which makes the Department of 
Defense the third largest land management department in the 
country. Our lands are managed first and foremost to provide 
for the training and testing necessary to maintain and enhance 
military readiness. DOD lands support the testing of new 
weapons systems, munitions, deployment of weapons systems, and 
combat training exercises.
    Our lands are also rich in various natural resources and we 
have an obligation to protect these resources for future 
generations. We take pride in our stewardship program and we 
have policies in place to conserve our natural and cultural 
resources for future generations.
    Although our primary conservation focus is mission support, 
DOD manages its lands for multiple uses, including outdoor 
recreation, such as hunting, fishing, commercial forestry and 
agriculture programs, and threatened and endangered species 
management.
    A major component of our conservation program at many DOD 
installations is its natural resources-based outdoor recreation 
program. By offering the opportunity to hunt, fish, hike, bird 
watch, and engage in other outdoor activities, our conservation 
managers enhance the quality of life for our installation 
residents and those who reside in the vicinity of our 
installation. We've offered these programs for many years and 
have made them available whenever military needs and sound 
management practices allow.
    Concerning access for disabled sportsmen, we are subject to 
Section 504 of the Rehabilitation Act of 1973. Furthermore, 
many bases have integrated special outdoor recreation programs 
for the disabled into their natural resources programs.
    They have also constructed special facilities to encourage 
hunting, fishing and other outdoor uses of our natural 
resources by disabled persons. But there is no doubt that 
indeed we can do more, and that's why we support the 
legislation today.
    I'd like to give you just a few examples of where our 
installations are already providing access, and then I'd like 
to ask Lieutenant Colonel Deal to tell his own special story 
about Quantico.
    I am going to proceed very quickly here, Mr. Chairman. We 
have programs at Eglin Air Force Base that have provided 
special opportunities. At Scott Air Force Base, Illinois, there 
is a fishing pier designed specifically for persons with 
disabilities. This design was provided to Robins Air Force 
Base, Georgia, in 1996, and it became the prototype for Robins' 
handicapped angler access pier construction program.
    At the Naval Air Station in Jacksonville, Florida, 
handicapped access is taken into consideration in the 
construction of nature trails, as well.
    These examples testify to the Department's commitment to 
make outdoor recreational opportunities more available to 
members of the disabled community. Some of our installations, 
such as Quantico, have developed particularly innovative 
programs that could well serve as models for disabled 
sportsmen's access anywhere, and indeed, I hope they will.
    With this legislation to spur our efforts and the many 
successful installation programs that we have already as 
models, we look forward to providing the disabled even greater 
access to the rich and varied outdoor recreational 
opportunities our military lands have to offer.
    And I would just like to say, Mr. Chairman, that I had an 
opportunity to converse with some of the witnesses on the next 
panel, and I have learned much from them. I think that they and 
the organizations they represent can be integral parts of our 
teamwork effort as we move forward to provide greater access 
for disabled sportsmen.
    I would now like to have Lieutenant Colonel Deal tell his 
own story about his unique effort to make Quantico more 
accessible to disabled sportsmen and to help others across the 
country. Colonel Deal.
    [The prepared statement of Ms. Goodman may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. Col. Deal.

   STATEMENT OF LIEUTENANT COLONEL A. LEWIS DEAL, EXECUTIVE 
OFFICER, WEAPONS TRAINING BATTALION, QUANTICO MARINE CORPS BASE

    Colonel Deal. Good morning, sir. I will follow the lead of 
my fellow naval aviator, Congressman Cunningham, and keep my 
remarks brief, too.
    I would like to begin by acknowledging the decisive 
leadership and actions of Congressman Cunningham and his fellow 
members who have come to the aid of all disabled sportsmen. I 
would like also to thank all of those who have come here today 
to testify, especially Kirk Thomas of the Wheeling Sportsmen of 
America for his time and expense to travel all the way from the 
great state of Alabama.
    My experiences at Quantico working to initiate programs and 
building facilities for our disabled veterans have been 
challenging, deeply rewarding, and a heck of a lot of fun. 
We've had some unique experiences that could be classified as 
almost comical. I am proud to say that our programs are a 
success and are now open to all sportsmen, not just disabled 
veterans.
    However, our disabled veterans still have first priority 
during hunting season. We are now in the final stages of 
planning a wheelchair accessible fishing pier. This has been a 
3-year effort in which we have been working closely with 
Paralyzed Veterans of America. I'd like to add that from day 
one the Paralyzed Veterans of America, especially Bruce Scott, 
have been our closest ally and we couldn't have gotten this far 
without their help.
    This fishing facility is extremely important, not just for 
the disabled veteran, but for the disabled dependent children 
aboard Quantico. For those children who will never have a 
chance to play football or take dancing lessons, no price tag 
can be put upon having the opportunity to safely go fishing 
with their families, especially in light of the fact that 
fishing is the No. 1 requested outdoor activity for disabled 
sportsmen.
    What I would really like to say is the following: This 
journey, this endeavor that we have begun, does not have a road 
map or a blueprint. This has never been done before. We have to 
design and build our own course, our own roadway to the future.
    It is paramount that we build a solid team, just like we 
did down at Quantico. There can be no hidden or selfish 
personal agendas. We must realize the biggest obstacle to our 
success is the misinformed attitudes of our fellow Americans 
toward disabled sportsmen.
    No nation in the world is attempting to do what we are 
doing, returning the disabled sportsman to the great outdoors. 
This is Americans helping Americans in its purest form. Our 
success at Quantico is just one small step on this journey.
    I am excited about the future. I am excited about what the 
future will bring. And as we say in the Marine Corps, I am 
eager to step off smartly.
    Thank you, sir. Are there any questions?
    [The prepared statement of Colonel Deal may be found at end 
of hearing.]
    Mr. Saxton. Thank you. The only question that I have for 
either of you is obviously, when we change the processes in 
various ways in the military, there are oftentimes what I call 
the necessity to work around. Is there any work around that we 
have to be aware of? Are there any disadvantages, I guess is 
what I'm saying, in an operational sense, or anything along 
those lines that we need to be aware of?
    Colonel Deal. From Quantico, no. We just try to piggyback 
on existing programs.
    Mr. Saxton. Access to bases, anything like that?
    Ms. Goodman. Mr. Chairman, I wouldn't anticipate that this 
will actually change the accessibility of bases. Many of our 
bases around the country are open to the public for hunting and 
fishing today, and where they are, we want to make them more 
accessible to the disabled. And to those that are available 
only to the military there, we also want to make those 
available accessible to the disabled who may reside on that 
base.
    Mr. Saxton. In other words, if the veteran community has 
access to a base, then this wouldn't change anything.
    Ms. Goodman. Right. This wouldn't change the basic access, 
but this will enable us to have the support and the help, the 
wherewithal, and the ingenuity of the many organizations 
represented by your next panel of witnesses to help us design 
programs, design opportunities in hunting, fishing and other 
outdoor activities that are right for the disabled.
    Mr. Saxton. Very good. Well, as I said earlier, this 
subject, this bill, this language is moving forward on two 
tracks, and we are going to try to keep it doing so. So thank 
you very much, both of you, for being with us to share your 
thoughts and experiences. We appreciate it very much, and we're 
going to move on to the next panel. Thank you.
    Panel three is composed of Lieutenant Colonel Larry Gerlach 
of the U.S. Marine Corps, Retired, whose home is in Fairfax, 
Virginia; Mr. Harley Thomas, Associate Legislative Director of 
the Paralyzed Veterans of America, who is accompanied by Mr. 
Bruce Scott, Director of Outdoor Activities, Paralyzed Veterans 
of America. Also, Mr. Kirk Thomas, President, the Wheelin' 
Sportsmen of America, and Mr. Jack Fasciana, a handicapped 
hunter from the Safari Club, which organization is in town 
today, by the way. I had the opportunity to have breakfast with 
them, as a matter of fact. And he is accompanied by his father, 
John Fasciana. The father, John Fasciana, of Bedford Hills, New 
York.
    Welcome aboard, and Mr. Gerlach, if you are ready, why 
don't you just proceed.

   STATEMENT OF H. LARRY GERLACH, LIEUTENANT COLONEL, USMC, 
                            RETIRED

    Colonel Gerlach. Thank you, Chairman Saxton, for inviting 
me today to testify on the Disabled Sportsmen's Access Act. I 
come before this Subcommittee as a veteran with a spinal cord 
injury who has been able to enjoy the outdoors and hunt deer 
and turkey at Quantico as a result of their great sportsmen 
accessibility program.
    The Quantico program, I believe, should be used as a model 
for H.R. 2760. It can't be exactly replicated at every base, 
but I think it could be used as a guide and adapted to the 
local communities around the base. I'd like to thank the 
Subcommittee for taking the time to consider the bill, and I 
thank Representatives Cunningham and Tanner for sponsoring it.
    As a sportsman who loves fishing and hunting or just to be 
afield or afloat, I have a vested interest in the Act and the 
program. Although I wouldn't presume to speak for all the 
disabled, veterans or not, I know a large number of them would 
benefit from the bill and it would add to their quality of 
life.
    The inclusion of the Secretary of Veterans Affairs in a 
consultation role, along with the national service, military 
and veterans organizations, I believe is significant and adds 
much to the bill. The Department of Veterans Affairs is a main 
provider of services to disabled veterans and is the recognized 
leader in service to the spinal cord injured.
    I know from the time I spent in the hospital, the better 
part of 1984, that having his program would have been a welcome 
dimension to the VA's efforts to help those who have suffered a 
catastrophic injury return to a full life, or as close as they 
can come to it.
    The program at Quantico has clearly shown the advantages of 
including volunteers, veterans organizations and sporting 
private organizations in the program, and is in step with the 
nation's tradition of volunteerism.
    My friend Lieutenant Colonel Lew Deal, spoke earlier and in 
his volunteer capacity has been one of the prime leaders in 
setting up the program. Terry Labar, another former Marine who 
is an instructor at the FBI Academy and uses a wheelchair to 
get around, and Tim Stamps, head of the hunting and fishing 
section at Quantico, have been very generous with their time 
and effort in setting up the program.
    In 1994, the program started with the building of 
wheelchair accessible stands and Paralyzed Veterans of America, 
they donated $500 worth of materials and then that was matched 
by Smitty's Hardware Store in Stafford County, who donated an 
equal amount of free lumber. That was the beginning for the 
program, and they have been added to and improved every year 
since.
    The volunteers also act as hunting partners for the 
disabled, and it's really unique in that, as those of us who 
work full-time, sometimes our schedules change. In one 
instance, I wasn't able to know that I was going to be able to 
go hunting on a Saturday until Friday. Well, the nice part 
about the program, I could call up--and I did, I said, ``Hey, 
Tim, I'd like to go hunting tomorrow. Is there any 
possibility.'' And he said, ``I'll call you back in half an 
hour, I'll let you know.'' He called back in about 20 minutes 
and I was out hunting the next day. So it wasn't something 
where you had to--it was flexible, sort of like curb cuts. It's 
nice when they are there, so you don't have to depend on 
someone to haul you up over the curb when you're getting in 
someplace.
    The beauty of the program is I think it is a win-win 
situation. I think it fits with DOD's quality of life program. 
It demonstrates a real effort and a tangible benefit to those 
who are currently serving on active duty, because they see that 
the uniformed services really are taking care of their own.
    That's the conclusion of my prepared testimony. I'd be 
happy to answer any questions if I can.
    [The prepared statement of Colonel Gerlach may be found at 
end of hearing.]
    Mr. Saxton. Thank you, Mr. Gerlach. That was well done. Mr. 
Thomas.

 STATEMENT OF HARLEY THOMAS, LIEUTENANT COLONEL, USMC, RETIRED

    Mr. Harley Thomas. Thank you, Mr. Chairman. On behalf of 
the Paralyzed Veterans of America, PVA, it's an honor to 
participate in today's hearing. PVA appreciates this 
opportunity to give our views on the Disabled Sportsmen's Act. 
Over 50 years ago, the original founders of Paralyzed Veterans 
came together in a united front to advocate participation in 
organized sports as an enhancement to rehabilitation.
    Veterans suffering traumatic spinal cord injury began 
playing wheelchair basketball and discovered that they didn't 
have to be spectators, they could also participate, and in 
doing so, enhance the quality of their lives.
    Today, some 51 years later, PVA continues to support and 
promote organized wheelchair sports for disabled veterans. 
Together with the Department of Veterans Affairs, the annual 
Veterans Wheelchair Games brings together over 500 participants 
in wheelchairs in organized competition. This is the largest 
organized wheelchair sporting event in the world.
    Although the Veterans Wheelchair Games is a true success 
story, it only accommodates a small number of the over 78,000 
disabled veterans suffering from traumatic spinal cord injury 
or dysfunction, and a mere fraction of the estimated 9 million 
veterans classified as disabled.
    PVA launched the annual U.S. Open Bass Tournament for 
disabled anglers back in 1987. And in 1984, this event was 
expanded into the Bass Trail, which consists of five to six 
events annually. Each of these events, held at various 
locations around the country, draws between 70 to 75 disabled 
anglers.
    In 1988, PVA launched a trap shoot for disabled 
individuals. This event has prospered over the years and this 
year was expanded to five different locations. The rules for 
disabled trap shooting are the same as for able-bodied 
individuals.
    Outdoor recreational facilities and opportunities are 
extremely important to all veterans and all individuals with 
disabilities. In a 1996 survey that we conducted, we found that 
the No. 1 recreational activity for our members and all people 
with disabilities was fishing, closely followed by hunting and 
all other recreational activities.
    Unfortunately, the numbers of accessible outdoor 
recreational facilities are extremely limited. Many local 
municipalities simply do not have the funds available to 
provide adequate outdoor recreational facilities.
    The Marine base at Quantico, Virginia has taken steps to 
ensure accessibility to outdoor recreation facilities by 
disabled individuals. This program has been extremely 
successful, and as Col. Gerlach said, ``I'm not much of a 
spectator sports fan, but I really love hunting and fishing. 
It's more fun doing than watching.''
    This program needs to be expanded nationwide to all 
military installations providing maximum availability of 
quality outdoor recreation facilities to disabled veterans, and 
to others with disabilities.
    The enactment of H.R. 2760 can provide a solution to this 
problem. Most military bases have ongoing outdoor recreation 
facilities to include fishing, hunting, boating, camping, and 
many other desirable activities. The Department of Defense is 
already required to provide access for qualified individuals 
with disabilities in all of its programs by virtue of Section 
504 of the Rehabilitation Act of 1973.
    However, full implementation has been hampered by the lack 
of resources and the cutback in budgets. The ability to use 
volunteers and donations to make recreational areas accessible 
will greatly increase the implementation of these existing 
regulations.
    By making these facilities accessible to disabled veterans, 
military dependents and other persons with disabilities would 
have access to more than 30 million acres, much of which is 
prime hunting ground. Utilization of these facilities can 
enrich the quality of life for many disabled individuals.
    Through the use of volunteers and donation of time and 
materials, costs associated with converting the existing 
outdoor activities to accommodate disabled individuals will be 
minimal. PVA has a staff of expert architects that are leaders 
in the field of disability and ADA standards. PVA would be 
happy to provide technical assistance to any military 
installation in providing accessible outdoor recreation 
facilities to the disabled community.
    I would like to extend a special thank you to Congressman 
Duke Cunningham for his introduction of this vital piece of 
legislation and the positive impact it will have on the 
disabled community. And I'd also like to thank Senator Burns 
for his introduction of the like bill in the Senate.
    Mr. Chairman, PVA urges passage of H.R. 2760. Thank you for 
holding this important hearing. I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Harley Thomas may be found 
at end of hearing.]
    Mr. Saxton. Thank you very much. Very excellent testimony.
    As you have heard, we are again having a vote on the House 
floor, and I have about 5 minutes to get over to do the vote. 
Let me make an unusual suggestion. Obviously, I feel like it's 
necessary, inasmuch as I've been invited to a meeting with the 
Prime Minister, to be there at 11 o'clock.
    Therefore, we can do one of two things. I can just go to 
make my vote and by the time I get back, it will be 11 o'clock. 
And so I will go on to the meeting, and would you rather we 
adjourn to a time certain in the next, say, 12 o'clock? Or 
would you just prefer to wait and I will get back as soon as I 
can?
    Mr. Kirk Thomas. Whatever you want to do is fine with me.
    Mr. Saxton. All right, we will adjourn pending my return 
and, as was just suggested by staff, there are other members 
who are busy off doing votes and other things who may be back 
before I am, and if so, they will take the chair and you can 
give your testimony in that way.
    Thank you very much for understanding, and I apologize.
    [Recess.]
    Mr. Peterson. [presiding] We are prepared to reconvene the 
hearing. Our next witness will be Mr. Kirk Thomas, President, 
Wheelin' Sportsmen of America. Welcome.

  STATEMENT OF KIRK THOMAS, PRESIDENT, WHEELIN' SPORTSMEN OF 
                         AMERICA, INC.

    Mr. Kirk Thomas. Thank you. Thank you, Mr. Chairman and 
members of the Committee for the privilege to testify before 
you today. I'd like to also thank Congressman Cunningham and 
Senator Burns for the leadership role they played.
    It is an honor to represent myself, Wheelin' Sportsmen of 
America and all disabled individuals across America. Persons 
with disabilities are the largest minority group in our 
country. There are approximately 54 million people with 
disabilities in the United States, 9 million of which are 
veterans.
    Outdoor activities are extremely important to people with 
disabilities. It provides a lot of things, good health, 
education, enjoyment, confidence, character, and goes a long 
way in building self-esteem, all of which add to the quality of 
life.
    The goal of WSA is to provide opportunities for all people 
with disabilities so they can get out and enjoy outdoors. Our 
emphasis is on teamwork. We team disabled and nondisabled 
together to negate many barriers. This, of course, does a good 
job in promoting disability awareness.
    We also team up with other organizations, groups, et cetera 
that are interested in our same goals. The reason for our 
explosive growth and success in such a short time has been 
because of teamwork.
    We offer our partnership to this bill, H.R. 2760. H.R. 2760 
can be a tremendous teamwork opportunity for everyone. I'd like 
for everyone to see that. We are dedicated to our goals and 
objectives. Myself and WSA are proud to step up as leaders in 
providing our expertise, leadership effort, promotional 
resources, and dedication in the success of H.R. 2760.
    I believe H.R. 2760 could be the catalyst that is needed 
for millions of people to team up to provide outdoor recreation 
for people with disabilities. It is very important. We look 
forward to the opportunities, challenges and success ahead of 
us.
    In closing, myself and WSA are interested in seeing the 
outdoors made accessible, more available. Teamwork and reality 
in working together can make the outdoors accomplishable.
    Thank you very much, and if there are any questions, I will 
be glad to take them.
    [The prepared statement of Mr. Kirk Thomas may be found at 
end of hearing.]
    Mr. Peterson. Thank you very much, Kirk. I really 
appreciate your willingness to come and share with us.
    I will introduce our next speaker, Mr. Jack Fasciana, 
Handicapped Hunter of the Year, Safari Club International, and 
he's accompanied by his father, John, of Bedford Hills, New 
York.
    He is a very young man who wrote his own testimony. Don't 
be nervous. We are just people like your dad. Mrs. Kelly was 
hoping to introduce you. She had to leave for a few minutes, 
and she is going to miss the opportunity. We apologize for her, 
but welcome and congratulate you on having the courage to do 
what you're doing. I know your dad is very proud of you, and we 
are, too. So please proceed.

     STATEMENT OF JACK FASCIANA, SAFARI CLUB INTERNATIONAL

    Mr. Fasciana. Mr. Chairman and distinguished members of the 
Committee. Thank you for granting me the opportunity to speak 
here today.
    I am here to speak in support of H.R. 2760, the Disabled 
Sportsmen's Access Act. I am speaking to you from my 
perspective as a disable American sportsman who has been 
fortunate enough to enjoy adventures in our outdoors. My 
achievements have been recognized by Safari Club International 
and I was the first recipient of the Special Young Hunter Award 
last January.
    My disability results from the fact that I have an 
extremely rare neuromuscular disorder called dystonia, which 
significantly limits my ability to walk and use my hands and 
arms.
    Federal lands are part of America's heritage, and part of 
its living legacy to all its citizens, including disabled 
sportsmen. H.R. 2760 allows a partnership between the 
Department of Defense and the private sector so that they can 
join forces to make these lands accessible to people like me.
    Safari Club International, which has been a leader in 
providing opportunities for disabled hunters, is an example of 
a private sector organization that will be an effective 
partner.
    The United States leads the nations of the world in making 
all aspects of life accessible to its disabled citizens. The 
pilot program at Quantico Marine Corps Base demonstrates that 
this concept can work well.
    I know I am disabled, and I know the consequences of my 
disability. The dedication of my family, especially the 
dedication and sacrifices of my dad, have given me the 
opportunity not only to enjoy the outdoors, but to demonstrate 
to myself and to my peers that my disability is only an 
obstacle to be overcome, not a barrier to participation.
    The Disabled Sportsmen's Access Act will make it easier for 
many disabled Americans to overcome these obstacles and to 
experience the adventures that I have experienced.
    I hope you will vote in favor of this legislation and I 
again offer to you my profound thanks for granting me the 
opportunity to address the Committee this morning. Thank you.
    [The prepared statement of Jack Fasciana may be found at 
end of hearing.]
    Mr. Peterson. Thank you very much, Jack. At this time, I 
ask unanimous consent to be joined by Congresswoman Sue Kelly. 
So ordered. Mrs. Kelly, please proceed.
    Mrs. Kelly. Thank you, Mr. Chairman. I want to thank you 
for giving me the opportunity to address the Subcommittee this 
morning. I am happy to be here to express my support for an 
important piece of legislation introduced by my friend, Duke 
Cunningham, to increase outdoor recreation opportunities for 
the disabled at military installations.
    I am also please to be here to listen to an impressive 
young man who happens to be a constituent of mine, Jack 
Fasciana, from Bedford Hills, New York. Outdoor sporting 
activities, such as hunting and fishing, are important to our 
society on a number of levels. They contribute billions of 
dollars to our economy every year and support millions of 
American jobs. I realize that this issue is not often thought 
of in economic terms, but when I hear the rhetoric from those 
who seek to restrict hunting and fishing opportunities, I have 
to remind them of the importance of these activities to New 
York's and the nation's economy.
    Fishing alone supports nearly 18,000 jobs in New York 
State. These activities also support the environment. Excise 
taxes on outdoor equipment have pumped billions of dollars into 
wildlife restoration activities over the years.
    Of course, Mr. Chairman, we all know that hunting, fishing, 
and other outdoor sports represent more than dollars and cents. 
They represent an important part of our heritage, a tradition 
that's passed down from generation to generation.
    What concerns me is whether Jack's generation will be able 
to enjoy the same opportunities that my family did. And this is 
why the Disabled Sportsmen's Access Act is so important. This 
is important legislation and it will ensure that outdoor 
programs on our nation's military installations will be 
accessible to the disabled.
    General Norman Schwartzkopf called Jack Fasciana a true 
American hero, and I couldn't agree more. Despite having a very 
rare neuromuscular disorder called early onset torsion 
dystonia, Jack has proved that a disability doesn't have to be 
an obstacle to enjoying the outdoors. He's hunted with his dad 
since he was two and a half years old, and he was recently 
honored with the Safari Club International's Special Young 
Hunter Award. As a matter of fact, Jack told me at that event, 
he stood in front of an audience and addressed an audience of 
1,500 people, right, Jack? And he did it very well.
    Dystonia is a terrible disease, Mr. Chairman, but it hasn't 
dampened Jack's love of the outdoors. We, as policymakers, have 
an obligation to Jack and to other disabled sportsmen to enact 
policies which will allow them to enjoy hunting and fishing so 
that they will be able to pass this tradition on to their 
children and grandchildren.
    I thank you again, Mr. Chairman, for giving me the 
opportunity to speak this morning. And Jack, I thank you for 
very good testimony. We really appreciate having you with us 
this morning.
    Thank you, Mr. Chairman.
    Mr. Peterson. We thank the gentlelady from New York for 
coming and sharing with us about her constituent. We appreciate 
that. I would like to thank the entire panel, and especially 
Jack. Jack, those of us who sometimes worry about the future of 
this country, when we see young people like you, motivated as 
you are, willing to speak out as you are, I think we are in 
good hands for the future. So you keep on doing what you are 
doing. You keep on being the exceptional young man that you 
are, and we'll all be very proud to watch you proceed.
    To the whole panel, thank you for coming today and 
supporting a very good piece of legislation.
    [The prepared statement of the National Rifle Association 
may be found at end of hearing.]
    Mr. Peterson. This hearing is in recess.
    [Whereupon, at 11:14 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Sherri W. Goodman, Deputy Under Secretary of Defense 
                        (Environmental Security)

    I would like to thank Chairman Saxton and the members of 
the House Resources Subcommittee on Fisheries Conservation, 
Wildlife and Oceans for inviting me to testify today on behalf 
of the Department of Defense. I am happy to report that the 
Department has worked with Representative Cunningham's staff to 
make some minor but necessary revisions to the bill as 
introduced, and I am now pleased to convey to you the 
Department's full support for the Disabled Sportsmen's Access 
Act.
    DoD manages 25 million acres of land across the United 
States, an area the size of the state of Virginia, which makes 
us the third largest land management department in the United 
States. DoD lands are managed first and foremost to provide for 
the training and testing necessary to enhance military 
readiness.
    DoD lands support readiness, testing of new weapon systems, 
testing of munitions, deployment of weapon systems, and combat 
training exercises. To have the ability to deploy and fight 
successfully anywhere in the world, the armed forces must train 
in a wide variety of climatic and terrain conditions. Training 
areas are located throughout the United States on grasslands, 
deserts, coastal areas, forests and tundra. For example, desert 
environments are used for maneuvers that involve large, 
mechanized battalions; coastal zones and beaches provide the 
setting for missile launches and amphibious landings; forested 
areas are essential for small arms combat training; and, large 
open areas are needed to accommodate air-to-ground bombing 
ranges.
    DoD lands are rich in various natural resources and we have 
an obligation to protect those resources for future 
generations. Our lands are home to many important species and 
habitats. DoD takes pride in its stewardship program and has 
had policies in place to conserve its natural and cultural 
resources for many years. This early commitment to sustainable 
resource management has evolved into well-defined, formalized, 
and integrated conservation policies.
    DoD's conservation program is focused on supporting the 
military mission. Sound conservation practices enhance mission 
safety; promote sustainability of training areas; and provide 
increased flexibility for military trainers. For example, we 
are working closely with military trainers to reduce the risk 
of loss of aircrews and aircraft to bird strikes. Recent 
efforts have substantially increased our ability to map large 
concentrations of birds. We have also started to use weather 
radar to provide near real time information on bird locations. 
This will permit aircrews to make last minute changes to 
flights to avoid potential hazards. The Army's Integrated 
Training Area Management program helps control vegetation loss 
and reduce soil erosion caused by tracked vehicles through a 
combination of monitoring, rehabilitation, and education. By 
clearly identifying when and where training lands are impacted, 
we are able to balance immediate military training needs with 
the land's ability to sustain long-term use.
    DoD also is developing new management approaches to 
increase military training flexibility on the use of land with 
sensitive species or habitats. One approach is to manage 
natural resources as part of an entire ecosystem. Land 
management plans and species recovery plans are developed based 
upon a more complete understanding of resources and habitat 
throughout the region. The plans balance the responsibility for 
supporting endangered species among all major Federal 
landowners. In addition, the plans ensure future development 
does not interfere with mission capabilities and is compatible 
with measures to protect endangered or threatened species. 
That's why we are moving to an ecosystem approach to managing 
our lands. This new approach has increased access to formerly 
restricted areas at locations such as Camp Pendleton, 
California, and Fort Bragg, North Carolina.
    Although DoD's primary conservation focus is mission 
support, DoD manages its lands for multiple uses, including 
outdoor recreation such as hunting and fishing, commercial 
forestry and agriculture programs, and threatened and 
endangered species management. By using comprehensive, 
integrated resource planning, DoD natural resource managers 
ensure that military mission requirements are met and other 
uses are accommodated whenever feasible.
    A major component of DoD's conservation program at many DoD 
installations is its natural resources-based outdoor recreation 
program. By offering the opportunity to hunt, fish, hike, bird 
watch, and engage in other outdoor activities, DoD's 
conservation managers enhance the quality of life for our 
installation residents and those authorized patrons who reside 
in the vicinity of an installation. DoD bases have offered 
these programs for many years and have made them available 
whenever military needs and sound management practices allow.
    Concerning access for disabled sportsmen the Department of 
Defense is subject to Section 504 of the Rehabilitation Act of 
1973. Additionally, it is DoD policy that all outdoor 
recreational opportunities meet all requirements of the 
Americans with Disabilities Act. Furthermore, many bases have 
integrated special outdoor recreation programs for the disabled 
into their natural resources programs. They have also 
constructed special facilities to encourage hunting, fishing, 
and other outdoor uses of our natural resources by authorized 
patrons who are disabled. I would like to provide you with just 
a few examples of where our installations are providing such 
access to disabled sportsmen.
    For example, for the past ten years, Naval Surface Weapons 
Center, Crane, Indiana, has annually invited approximately 120 
holders of an Indiana Handicapped Deer Hunting Permit to hunt 
on base prior to the legal firearm deer hunting season, with 
the permission of the Indiana Department of Natural Resources. 
The Indiana Deer Hunters Association helps the Station with 
this hunt by assisting in notifying hunters of the hunt and by 
supplying people to walk with the disabled hunters. The success 
rate during the hunt is usually double that of a regular hunt 
because the Navy allows hunters with disabilities more chances 
to move around than are allowed during regular hunts, and use 
the volunteers and Station personnel help the hunters track 
down any deer they might have wounded. For many of the hunters, 
this is the only chance they have each year to hunt deer with a 
reasonable chance of success.
    Scott AFB, Illinois, offers a fishing pier designed 
specifically for persons with disabilities. Scott provided this 
design to Robins AFB, Georgia, in 1996, and it became the 
prototype for Robins' handicapped angler access pier 
construction program. Robins has constructed two fishing piers 
accessible to persons with disabilities. This design also has 
been proposed for use throughout Air Mobility Command. The 
design complies with national handicapped access standards. The 
all weather construction allows safe access to the water with a 
protective hand rail throughout and a roomy, level deck 
extending over the water surface.
    For the last four years, Eglin AFB, Florida, in conjunction 
with the Florida Disabled Hunters Association, has sponsored a 
Mobility Impaired Hunt in areas normally closed to public 
hunting due to mission testing. These areas have some of the 
highest white-tailed deer and wild hog densities on Eglin and 
in the Florida Panhandle. The Eglin Natural Resources Branch 
distributes to and accepts applications from interested 
hunters, and the Florida Disabled Hunters Association screens 
those applications to ensure applicants meet the mobility 
impaired criteria. After the screening process, Eglin randomly 
selects 40 qualified applicants to participate in a two day, 
weekend hunt Eglin invests many field hours identifying and 
designating hunting locations to provide the highest quality 
hunting opportunities possible. Eglin escorts the hunters into 
the closed areas and drops them off at their designated stand 
locations. They check on the hunters several times during the 
day to see if they need any assistance, including finding, 
retrieving, and dressing game. During last year's hunt, a total 
of 37 hunters harvested 54 deer and one hog. Among the 
successful hunters were one who had been unable to harvest a 
deer in 35 years, and another who had not been successful for 
the past ten years.
    Marine Corps Base Quantico, Virginia, has constructed nine 
ground blinds on stands for disabled hunters. These stands were 
built by volunteers with donated materials from the Paralyzed 
Veterans of America and a local hardware store. These stands 
are reserved for disabled hunters only, and availability is 
advertised in local newspapers and the Paralyzed Veterans 
newsletter. The stands are open all season. Quantico is also 
planning to build a fishing pier with access for handicapped 
persons, with low gradient trails. It will be completed next 
year to allow year round river access for disabled fishermen.
    Ravenna Army Ammunition Plant, Ohio, provides deer hunting 
permits for those in wheelchairs, as space permits, and sets 
aside a designated hunting area for these special needs 
hunters. Ravenna helps the hunters set up, and ensures that 
each hunter has a non-hunting partner to assist his or her 
needs.
    McAlester Army Ammunition Plant, Oklahoma, dedicates one 
weekend during the annual deer hunt to physically challenged 
hunters only. An average of 100 hunters participate in these 
hunts.
    Pine Bluff Arsenal, Arkansas, has just implemented a policy 
which allows persons with disabilities to have exclusive use of 
deer stands that they erect. Pine Bluff also allows persons 
with disabilities to purchase a lifetime permit for the price 
of a normal annual permit.
    Blossom Point Research Facility, Maryland, has one 
wheelchair accessible stand and two others that are only one 
step off the ground. An individual with a motorized wheelchair 
and others who have had hip and/or knee replacements and cannot 
climb stairs use these stands. The Blossom Point hunting 
program is open to the public by lottery so that hunting 
opportunities are offered to all individuals, not just those 
affiliated with DoD.
    Camp Ripley, Minnesota, annually conducts a two-day, 
Disabled American Veterans hunt for deer in cooperation with 
the Department of Natural Resources Wildlife and Enforcement 
divisions, the Department of Veterans Affairs, Disabled 
American Veterans, and local veterans groups. This program was 
initiated in 1992, when twenty one participants succeeded in 
obtaining seven deer.
    Camp Navajo, Arizona, initiated a successful hunt for 
disabled veterans only, which allows them to hunt without 
interference from other hunters. This hunt will be expanded 
this year with the addition of some four wheel drive all 
terrain vehicles that will be used to transport disabled 
veteran hunters throughout the hunting area.
    Naval Surface Warfare Center Dahlgren Laboratory has hosted 
a Disabled Veterans Special Deer Hunt annually since 1987, in 
cooperation with the Virginia Deer Hunters Association. The 
Association provides 50 to 75 volunteers each year to aid 
disabled veterans, conduct the deer drives, provide nourishment 
to the hunters, and prepare the venison. The disabled veterans 
are situated in the back of pickup trucks to enhance their 
ability to see the deer and to gain access to different parts 
of the base. Some 12 to 15 disabled veterans participate each 
year.
    At Naval Air Station, Jacksonville, Florida, handicapped 
access is taken into consideration for all nature trails. For 
example, the Station is currently building a wheelchair ramp 
onto the pavilion at its Watchable Wildlife area, with a paved 
walkway leading from the pavilion to its natural resources 
education center. The Station is also constructing a nature 
walk with fiber mulch and a boardwalk through a wetlands area 
that meet Americans for Disabilities Act standards.
    The many examples I have discussed with you today testify 
to the Department's commitment to make outdoor recreational 
opportunities more available to members of the disabled 
community. Some of our installations have developed 
particularly innovative programs that could well serve as 
models for disabled sportsmen's access anywhere. With this 
legislation to spur our efforts, and these many successful 
installation programs as our polestar, we look forward to 
providing the disabled even greater access to the rich and 
varied outdoor recreational opportunities our military lands 
offer.
    I would be happy to answer any questions from the 
Committee.
                                ------                                


  Statement of Lieutenant Colonel A. Lewis Deal, United States Marine 
                                 Corps

    Mr. Chairman and members of the House Subcommittee on 
Fisheries Conservation, Wildlife, and Oceans, it is my great 
pleasure and honor to address you today on such an historic 
piece of legislation. I would like to begin by acknowledging 
the leadership of Rep. Cunningham and Sen. Burns for their 
leadership on behalf of disabled sportsmen.

BACKGROUND

    The genesis and foundation for my involvement with disabled 
sportsmen began at Marine Corps Base Quantico, Virginia, in 
1993. I read an article in the March 1993 edition of OUTDOOR 
LIFE magazine addressing the needs and challenges of disabled 
sportsmen returning to the great outdoors. It occurred to me 
that Quantico could develop a hunting program that would allow 
access for our disabled veterans. I wrote a proposal and sent 
it to Brigadier General Steele who at that time was the base 
Commanding General. His decision was quick and decisive, ``We 
are going to make this happen.'' With the help of eager 
volunteers, donated materials from the Paralyzed Veterans of 
America and a local hardware store, we constructed several 
wooden ground blinds. That fall we initiated a disabled 
veterans ``pilot'' hunting program. It was a huge success. 
Quantico now has a fully integrated disabled hunting program 
open to any disabled sportsman. The hunting program includes 
deer, small game, and turkey. There are 10 permanent ground 
blinds and a ``HUNTMASTER'' elevating lift. The base Boy Scout 
Troop just completed building wheelchair accessible paths for 
our Trap/Skeet range. We are also in the final planning stages 
for building a handicapped accessible fishing pier. We feel 
Quantico has a model program for other DoD installations. In 
fact, I have received requests from disabled veterans as far 
away as Oklahoma and Florida asking to come hunt at Quantico. I 
do not feel disabled veterans should have to travel that far to 
utilize a military facility, especially when there are military 
bases in their home states.
CONCEPT

    Since the Americans With Disabilities Act (ADA) was signed 
in 1990, there has been a tremendous groundswell of support for 
people with disabilities in this country. Nationwide there are 
hundreds of programs and initiatives to give citizens with 
disabilities access to buildings, facilities, and recreational 
activities.
    The Department of Defense (DoD) manages nearly 25 million 
acres of land, containing every conceivable landform and type 
of habitat. These well managed lands provide environments in 
which fish and game animals flourish. Our military 
installations offer numerous outdoor recreation programs 
(fishing, hunting, trap/skeet, boating, camping, wildlife 
viewing, etc.) which provide outstanding opportunities for both 
military and civilian sportsmen.
    The Department of Veterans Affairs (VA) is dedicated to 
administrating Federal programs and benefits for nearly 28 
million veterans. There are approximately 9 million veterans 
classified as ``disabled'' of which nearly 78,000, due to a 
spinal cord injury or dysfunction (SCD) are in wheelchairs. The 
SCD numbers are increasing at 1,200 to 1,500 a year. This is 
due in part to the ``aging'' of the veterans population (9.3 
million, 65 or older by the year 2000) and its associated 
medical problems. In this era of decreasing budgets and 
healthcare reform, the VA is constantly seeking resources and 
innovative programs to provide for adequate healthcare and 
improved quality of life.
    It is a well documented fact that outdoor activities for 
people with disabilities are more than just recreation, they 
are therapeutic. They add an intangible quality to life and 
personal well being. The opportunity to have access to outdoor 
facilities/programs is a powerful form of proactive 
rehabilitation which emphasizes outpatient vice inpatient 
healthcare.
    An invaluable source of ``volunteer'' support and resources 
for assistance on this issue are the national service and 
military organizations (i.e., Paralyzed Veterans of America, 
Inc., Marine Corps League, Vietnam Veterans Institute, American 
Legion, Veterans of Foreign Wars, Jewish War Veterans of the 
United States, Association of the United States Army, Navy 
League of the United States, Air Force Association, AMVETS, 
etc.).
    There are also numerous sporting industry and public-
private sporting organizations which are already assisting in 
other disabled outdoor projects (The Wheelin' Sportsmen of 
America, Inc., National Shooting Sports Foundation, Coalition 
to Promote Accessible Outdoor Recreation, Haas Outdoors Inc., 
Savage Arms, Inc., National Wheelchair Shooting Sports 
Federation, Safari Club International, Fishing has no 
boundaries, Inc., Ducks Unlimited, The Congressional 
Sportsmen's Foundation, Buckmasters, etc.).

Summary

    In closing I would like to thank all the individuals and 
organizations across the country who have worked so hard in 
support of disabled sportsmen.
    My involvement with disabled sportsmen, specifically our 
disabled veterans has been a deeply rewarding and satisfying 
experience. When I have put the call out for volunteers to help 
with our program at Quantico the response has always been 
nothing less than overwhelming. I am confident that such 
support will continue.
    Thank you for allowing me to be here today. I am eagerly 
standing by to assist in any manner I can. SEMPER FI!
                                ------                                


           Statement of H. Larry Gerlach, Lt.Col. USMC (Ret.)

    Thank you, Chairman Saxton for inviting me to testify today 
on H.R. 2760, the Disabled Sportsmen's Access Act. I come 
before the Subcommittee today as veteran with spinal cord 
injury who has been able to enjoy the outdoors and hunt deer 
and turkey for the past three years as result of the great 
disabled sportsmen's access program at Marine Corps Base 
Quantico. The Quantico program can and should serve as the 
model for the implementation of H.R. 2760. It shouldn't be 
exactly replicated on every installation but can be used as a 
guide and adapted to the local community. I thank the 
Subcommittee for taking the time to consider this bill and I 
thank Representatives Cunningham and Tanner for sponsoring it.
    As a sportsman who loves fishing and hunting or just to be 
afield or afloat, I have a vested interest in this Act and 
program, and although I wouldn't presume to speak for all the 
disabled, veterans or not, I know a large number of them would 
benefit from this Bill which would enable many of them to add 
to their quality of life. The inclusion of the Secretary of 
Veterans Affairs in a consultation role along with national 
service, military, and veterans organizations and sporting 
organizations in the private sector is significant and adds 
much to the Bill. The Department of Veterans Affairs is a main 
provider of services to disabled veterans and is the recognized 
leader in service to those with spinal cord injury. This should 
provide another avenue for the VA in their dedicated effort to 
provide for their customers, the veterans. I know from the time 
I spent in the hospital, which was the better part of 1984, 
having a program such as this would add a welcome dimension to 
the VA's ongoing efforts to help those who have suffered a 
catastrophic injury return to a full life, or the closest they 
can come to it.
    The program at Quantico has clearly shown the advantages of 
including volunteers, veterans organizations and sporting 
organizations in the program and is clearly in step with the 
Nation's tradition of volunteerism.
    My friend Lt. Col. Lew Deal, Executive Officer of Weapons 
Training Battalion, Quantico who is here today, has in his 
volunteer capacity been one of the prime leaders in this 
program. Since the summer of 1994, wheelchair accessible stands 
have been built and placed in the woods of Quantico. Terry 
Labar, another former Marine who works at the FBI Academy and 
uses a wheelchair to get around, and Tim Stamps, head of the 
fish, game and agronomy section at the base were also highly 
involved in this effort. The PVA donated $500 and Smitty's 
Hardware Store in Stafford County matched that amount in free 
lumber. Volunteers built the stands, which have been increased 
and improved upon every year since. They also act as hunting 
partners for the disabled hunters and if they aren't also 
enjoying themselves, they've fooling me. Some have even 
indicated to me it adds to their quality of life.
    The beauty of this program is it fits hand in glove with on 
going efforts to improve outdoor recreational activities 
consistent with DOD quality of life program and it includes the 
disabled with minimal cost. Additionally it doesn't detract 
from the mission of defending our republic and it fact may add 
to the intangible by demonstrating to those currently serving 
on active duty that the uniformed Services do take care of 
their own.
    In closing, I would like to thank all who have been 
involved in the disabled sportsmen's access program at MCB 
Quantico. The disabled who have been able to take advantage of 
the program appreciate the individuals who have generously 
invested extensive effort and time in this successful 
operation. I also thank you Members of Congress for your time 
and effort in considering this Bill. I feel sure that after 
these hearings, you will not find it difficult to write a 
favorable report. Of course, you know that is what I hope you 
will decide. Regardless, God Bless you and the United States Of 
America.
                                ------                                


 Statement of Harley Thomas, Associate Legislative Director, Paralyzed 
                          Veterans of America

    Chairman Saxton and Members of the Subcommittee, on behalf 
of the Paralyzed Veterans of America (PVA) it is an honor to 
participate in today's hearing. PVA appreciates this 
opportunity to express our views on the ``Disabled Sportsmen's 
Access Act.''

PARTICIPATION IN SPORTS FACILITATES REHABILITATION

    Over fifty years ago the original founders of the Paralyzed 
Veterans of America, (PVA) came together in a united front to 
advocate participation in organized sports as an enhancement to 
rehabilitation. Veterans suffering traumatic spinal cord injury 
began playing wheelchair basketball and discovered they didn't 
have to be spectators, they could participate and in doing so, 
enhance their quality of life.
    Today some fifty-one years later, PVA continues to support 
and promote organized wheelchair sports for disabled veterans. 
Together with the Department of Veterans Affairs, the annual 
Veterans Wheelchair Games, brings together over 500 of the best 
wheelchair athletes in the nation for organized competition. 
This is the largest organized wheelchair-sporting event in the 
world. Although the veterans wheelchair games is a true success 
story, it only accommodates a small number of the over 78,000 
disabled veterans suffering from traumatic spinal cord injury 
or dysfunction, and a mere fraction of the estimated 9,000,000 
veterans classified as disabled.
    PVA launched the annual U.S. Open Bass Tournament for 
disabled anglers in 1987. This event was expanded into the 
``Bass Trail'' which consists of 5 to 6 events annually, in 
1994. Each of these exciting events held at various locations 
around the country, draws between 70-75 disabled anglers.
    In 1988, PVA launched a Trap Shoot for disabled 
individuals. This event has prospered over the years and this 
vear was expanded to five different locations. Each of these 
events draws from 60-75 participants. The rules for disabled 
trap shooting are the same as for able-bodied individuals.

OUTDOOR RECREATION NUMBER ONE

    Outdoor recreational facilities and opportunities are 
extremely important to veterans and all individuals with 
disabilities. In a 1996 survey conducted by PVA, we found that 
the number one recreational activity for our members was 
fishing, followed closely by hunting and all other outdoor 
recreational activities in general. Unfortunately the numbers 
of accessible outdoor recreational facilities are extremely 
limited. Many local municipalities simply do not have the funds 
available to provide adequate outdoor recreation facilities.
    The Marine base at Quantico, Virginia has taken steps to 
ensure accessibility to outdoor recreation facilities by 
disabled individuals. This program has been extremely 
successful. Former Marine Larry Gerlach says, ``I'm not much of 
a spectator sports fan, but I really love hunting and fishing. 
It's more fun doing than watching. The program at Quantico, 
which allows actual doing, is a godsend. If it can be expanded 
nationwide, I know it will be enjoyed by many other handicapped 
individuals who can then enjoy the physical and mental pleasure 
it offers.''
    This program needs to be expanded nation-wide to all 
military installations, providing maximum availability of 
quality outdoor recreation facilities to disabled veterans and 
other, with disabilities.
    The enactment of H.R. 2760 can provide a solution to this 
problem. Most military bases have ongoing outdoor recreation 
facilities to include fishing, hunting, boating, camping, and 
many other desirable activities. The Department of Defense is 
already required to provide access for qualified individuals 
with disabilities in all of its programs, by virtue of Section 
504 of the Rehabilitation Act of 1973 (38 CFR sections 15.149-
150 (1997)). However, full implementation has been hampered by 
lack of resources. The ability to use volunteers and donations 
to make recreation areas accessible will greatly increase the 
implementation of these existing regulations.
    By making these facilities accessible to disabled veterans, 
military dependents and other persons with disabilities, they 
would have access to the over 30,000,000 acres, much of which 
is prime hunting grounds. Utilization of these facilities can 
enrich the quality of life for many disabled individuals.
    Through the use of volunteers and donations of time and 
materials, costs associated with converting existing outdoor 
activities to accommodate disabled individuals will be minimal. 
PVA has a staff of expert architects that are leaders in the 
field of disability and ADA standards. PVA would be happy to 
provide technical assistance to any military installation 
interested in providing accessible outdoor recreation 
facilities to the disabled community.
    PVA would like to extend a special ``thank you'' to 
Congressman ``Duke'' Cunningham for his introduction of this 
vital piece of legislation and the positive impact it will have 
on the disabled community.
    Mr. Chairman, PVA urges the passage of H.R. 2760. Thank you 
for holding this important hearing, it shows your concern for 
the needs of disabled veterans. Mr. Chairman this concludes my 
testimony. I will be happy to respond to any questions you or 
members of the Committee may have.

                   Curriculum Vitae of Harley Thomas

    Harley is a veteran of twenty years military service in the 
United States Navy. During his military career, he spent a tour 
in Japan and Vietnam with Fleet Air Reconnaissance Squadron One 
(VQ1).
    In 1968, Harley served aboard the USS Piedmont in support 
of fleet operations in Vietnam. Harley spent his final tour in 
the service with the Defense Communications Agency in Reston, 
VA, where he retired in February 1976 as a Chief Data 
Processing Technician. Following his military career, he worked 
in the computer industry as a senior system analyst until 1996. 
Harley holds a degree in business from the University of 
Virginia. He is currently employed by the Paralyzed Veterans of 
America, as an Associate Legislative Director.

Information Required by Rule XI 2(g)(4) of the House of Representatives

    Pursuant to Rule XI 2(g)(4) of the House of 
Representatives, the following information is provided 
regarding Federal grants and contracts.

Fiscal Year 1998
    General Services Administration--Preparation and 
presentation of seminars regarding implementation of the 
Americans With Disabilities Act, 42 U.S.C. Sec. 12101, and 
requirements of the Uniform Federal Accessibility Standards--
$15,000.
    Department of Veterans Affairs--Donated space for veterans' 
representation, authorized by 38 U.S.C. Sec. 5902--$243,912* 
(as of December 31, 1997).
    Court of Veterans Appeals, administered by the Legal 
Services Corporation--National Veterans Legal Services 
Program--$63,656 (as of December 31, 1997).

Fiscal Year 1997
    Architectural and Transportation Barriers Compliance 
Board--Develop illustrations for an Americans With Disabilities 
Act, 42 U.S.C. 12101, technical compliance manual--$10,000.
    Department of Veterans Affairs--Donated space for veterans' 
representation, authorized by 38 U.S.C. Sec. 5902--$975,651.*
    Court of Veterans Appeals, administered by the Legal 
Services Corporation--National Veterans Legal Services 
Program--$238,307.

Fiscal Year 1996
    General Services Administration--Preparation and 
presentation of seminars regarding implementation and the 
Americans With Disabilities Act, 42 U.S.C. Sec. 12101,--
$25,000.
    Federal Elections Commission--Survey accessible polling 
sites resulting from the enactment of the Voting Access for the 
Elderly and Handicapped Act of 1984, Public Law 98-435--
$10,000.
    Department of Veterans Affairs--Donated space for veterans' 
representation, authorized by 38 U.S.C. Sec. 5902--$897,522.*
    Court of Veterans Appeals, administered by the Legal 
Services Corporation--National Veterans Legal Services 
Program--$200,965.
----------
*This space is authorized by 38 U.S.C. Sec. 5902. These figures 
are estimates derived by calculating square footage and 
associated utilities costs. It is our belief that this space 
does not constitute a Federal grant or contract, but is 
included only for the convenience of the Committee.
                                ------                                


         Statement of Jack Fasciana, Safari Club International

    Mr. Chairman and distinguished members of the Committee, 
thank you for granting me the opportunity to speak today.
    I am here to speak in support of H.R. 2760 the ``Disabled 
Sportsmen's Access Act.''
    I am speaking to you from my prospective as a disabled 
American sportsman who has been fortunate enough to enjoy 
adventures in our beautiful outdoors. My achievements have been 
recognized by Safari Club International and I was the first 
recipient last January of SCI's Special Young Hunter Award.
    My disability results from the fact that I have an 
extremely rare progressive neuro-muscular disorder called 
dystonia which significantly limits my ability to walk and us 
my hands and arms.
    Federal lands are part of America's heritage and part of 
its living legacy to all its citizens, including disabled 
sportsmen.
    H.R. 2760 allows a partnership between the Department of 
Defense and the private sector so that they can join forces to 
make these Federal lands accessible to people like me. Safari 
Club International, which has been a leader in providing 
opportunities to disabled hunters, is an example of a private 
sector organization that will be an effective partner.
    The United States leads the nations of the world in making 
all aspects of life accessible to its disabled citizens.
    The pilot program at the Quantico Marine Corps Base 
demonstrates that this concept can work well.
    I know I am disabled and I know the consequences of my 
disability. The dedication of my family, especially the 
dedication and sacrifices of my dad have given me the 
opportunity not only to enjoy the outdoors but to demonstrate 
to myself and to my peers that my disability is only an 
obstacle to be overcome not a barrier to participation.
    The Disabled Sportsmen's Access Act will make it easier for 
many disabled Americans to overcome these obstacle and to 
experience the adventures that I have experienced.
    I hope you will vote in favor of this legislation and I 
again offer to you my profound thanks for granting me the 
opportunity to address the Committee this morning.
                                ------                                


         Statement of the National Rifle Association of America

    The National Rifle Association of America (NRA) would like 
to take this opportunity to express our enthusiastic support 
for H.R. 2760. This bill is designed to encourage the 
Department of Defense to provide military installations the 
support needed to make their public outdoor recreation programs 
accessible to all Americans with disabilities.
    H.R. 2760 will extend to military installations the legacy 
established by many public and private organizations that have 
successfully operated thousands of hunts and shooting events 
for citizens with disabilities for almost five decades. To 
ensure that the full range of outdoor recreation programs is 
included, we recommend that the bill be amended to add 
recreational and competitive shooting to the activities listed 
in the bill as falling within the meaning of ``outdoor 
recreation opportunities.''
    The NRA recognized the importance of including sportsmen 
and women with disabilities in its hunting and shooting events 
as early as 1950, which was a full forty years before the 
passage of the Americans with Disabilities Act. It was in that 
year that NRA amended its Competitions Rulebook to allow 
shooting sports competitors with disabilities the opportunity 
to participate on equal terms with their able-bodied 
counterparts. As a result, competitors with disabilities have 
won numerous national, state and regional shooting competition 
titles.
    Since World War II, many organizations have created 
hunting, fishing and shooting opportunities for citizens with 
disabilities. A number of these opportunities have been offered 
on military lands such as the hunts conducted by the U.S. Army 
Corps of Engineers in which a large percentage of disabled 
veterans have participated. According to state departments of 
natural resources that permit sportsmen with mobility 
impairments to hunt from a motor vehicle, or with a crossbow, 
there are already over 50,000 disabled veterans and other 
citizens being served. The pilot programs for serving this 
population were started many years ago when states began 
offering disabled veterans free, or reduced, hunting and 
fishing licenses.
    A national Disabled Shooting Services office was created by 
the NRA seven years ago specifically to serve this unique 
population by providing adaptive equipment design, helping to 
solve disability-related shooting function problems, and 
addressing accessibility issues and medical considerations. 
This office annually responds to over thirty-five hundred calls 
and letters for guidance. We are proud to say that many of the 
pioneering disabled hunting and shooting organizations received 
assistance and guidance from the NRA in the early stages of 
their development and, as a result, are better equipped to 
serve our growing populations with disabilities.
    The Manager of the NRA's Disabled Shooting Services is an 
expert in the field of disability-related hunting and shooting 
issues. He presently serves as Chairman of the Shooting Sports 
for the International Paralympic Committee and is head coach of 
the U.S. Disabled Shooting Team. This NRA-supported team of 
disabled marksmen and women travel the world representing the 
U.S. in international shooting competitions. During the past 
ten years the team has won 214 medals, and set seven World and 
sixteen Pan-American records for our nation.
    We feel that military support for sportsmen and women with 
disabilities, through passage of H.R. 2760, will be a fitting 
addition to the hunting and shooting opportunities that are 
already being provided for disabled veterans and other citizens 
on military, state and private lands.
    We would like to make another suggestion with respect to 
this legislation. If the number of military installations that 
are willing to make their hunting and shooting opportunities 
wheelchair accessible should reach a level requiring a director 
of a military-wide program, we suggest that the Department of 
Defense select one of the many fine Paralyzed Veterans of 
America sports directors to the post. The choice of a disabled 
veteran will visibly demonstrate the military's commitment to 
making outdoor recreation accessible to the disabled and will 
reflect well in the eyes of all Americans.
    Thank you for this opportunity to comment on H.R. 2760.
    [GRAPHIC] [TIFF OMITTED] T8953.001
    
    [GRAPHIC] [TIFF OMITTED] T8953.002
    
    [GRAPHIC] [TIFF OMITTED] T8953.003
    
    [GRAPHIC] [TIFF OMITTED] T8953.004
    
    [GRAPHIC] [TIFF OMITTED] T8953.005
    

</pre></body></html>
